AFFIDAVIT OF SERVICE
SUPREME COURT OF THE UNITED STATES
No. 20-1061
X
Dantzler, Inc., et al.,
Petitioners,
V.

S2 Services Puerto Rico, LLC, et al.,
Respondents.
X
STATE OF NEW YORK )
COUNTY OF NEW YORK )
I, Marianna Iannotta, being duly sworn according to law and being over the age of
18, upon my oath depose and say that:
I am retained by Counsel of Record for Respondents.
That on the 2nd day of April, 2021, I served the within Brief in Opposition to Petition
for Writ of Certiorari in the above-captioned matter upon:

Elwood Clement Stevens Jr.
Counsel of Record
Domengeaux, Wright, Roy and Edwards, LLC
556 Jefferson Street
Suite 500
Lafayette, LA 70502
337 233 3033
elwoods@wrightroy.com
Attorneys for Petitioners

by depositing three copies of same, addressed to each individual respectively, and
enclosed in a post-paid, properly addressed wrapper, in an official depository maintained
by the United States Postal Service, via Express Mail. An electronic version was also
served by email to each individual.
That on the same date as above, I sent to this Court forty bound copies and one
unbound copy of the within Brief in Opposition to Petition for Writ of Certiorari through
the United States Postal Service by Express Mail, postage prepaid.

In addition, the brief has been submitted electronically through the Court's
electronic filing system.
All parties required to be served have been served.
I declare under penalty of perjury that the foregoing is true and correct.
Executed on this 2nd day of April, 2021.

Marianna lannotta

Sworn to and subscribed before me this 2nd day of April, 2021.

MARIA MAISONET
Notary Public State of New York
No. 01MA6204360
Qualified in Queens County
Commission Expires Apr. 20, 2021

#303510

COUNSEL PRESS
(800) 274-3321 • (800) 359-6859
www.counselpress.com

